gbkh a

GEORGE BROTHERS 1100 Norwood Tower | 114 West 7th St | Austin, Tx 78701
KINCAID & HORTON LLP 512.495.1400 | FAX 512.499.0094 | RHorton@gbkh.com | WWW.GBKH.COM

August 3, 2021

VIA U.S. MAIL AND ELECTRONIC FILING
Mr. Scott Harris

Clerk

Supreme Court of the United States

One First Street, N.E.

Washington, DC 20543

Re: — Case No. 20-1029; City of Austin v. Reagan National Advertising of Texas, Inc.

Dear Mr. Harris:

I represent respondents in the above-captioned matter. | am writing to inform you that
respondents consent to the filing of any and all briefs of amici curiae related to the petition for a
writ of certiorari, whether in support of either or neither party. Should you need any additional
information, please do not hesitate to let me know.

Yours sincerely,

George Brothers Kincaid & Horton, L.L.P.

   

B. Russ Horton

ce: Renea Hicks, Esq. (by U.S. mail)

Board Certified in Civil Trial Law and Personal Injury Trial Law | Texas Board of Legal Specialization
